U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


             BUREAU OF THE CENSUS
   Local Census Offices Were Successfully
Opened, but Some Lessons Can Be Learned
      from Decennial Leasing Operations
    Final Inspection Report No. IPE-11573/September 2000




            Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                Final Report IPE-11573
Office of Inspector General                                                                                        September 2000



                                                 TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          I.        Census/GSA Partnership Delivered Office Space but the Bureau Needs
                    to Make a Final Evaluation of the Leasing Program When It Is Complete . . . . . . . . . 9

          II.       There Are Some Lessons to Be Learned from the Bureau’s
                    Real Estate Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                    A.         The bureau initially drew lease delineated areas too narrowly . . . . . . . . . . . . 14
                    B.         The lease project needs to improve file management . . . . . . . . . . . . . . . . . . 19

          III.      The Bureau Needs to Improve Planning for Decennial Leasing and
                    Office Preparations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

                    A.         Improved planning for telecommunications is needed . . . . . . . . . . . . . . . . . . 23
                    B.         The bureau should expand its use of formal business case analyses . . . . . . . 26

          IV.       Space Leasing Project Lacks an Adequate Interagency Agreement with GSA . . . . . 28

          V.        The Bureau Could Have Made Greater Use of Build-Out Financing . . . . . . . . . . . . 31

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

Appendices

          A.        Major Steps In The Venture 2000 Leasing Acquisition Process . . . . . . . . . . . . . . . 36

          B.        U. S. Census Bureau Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . 38
U.S. Department of Commerce                                                         Final Report IPE-11573
Office of Inspector General                                                                 September 2000



                                      EXECUTIVE SUMMARY

The U.S. Constitution requires that every 10 years a count of the population, a decennial census, be
conducted in order to reapportion the U.S. House of Representatives. The decennial census is also
used to allocate federal funds and provide essential demographic, social, and economic data about the
nation. In addition, the state governments use decennial census data to redistrict their legislatures.

A large infrastructure is required to conduct the national population count. For the year 2000
decennial, over 1,000 census offices are involved in data collection and processing. This review
focuses on the 520 local offices, of which 130 are early-opening local census offices (ELCOs) and 390
are local census offices (LCOs). These offices represent the largest proportion of the space that the
bureau has acquired, totaling over 3.9 million (rentable) square feet throughout the nation. Each ELCO
and LCO must meet the bureau’s specifications and be outfitted with telecommunications, security and
office equipment, furniture, and supplies. The purpose of our review was to determine whether the
acquisition of space, equipment and supplies, and other lease-related procurement actions of the
Decennial Census Field Office Acquisitions Program, were carried out properly, effectively, and on
time.

Due to the fast pace of the lease acquisition program and to ensure that our initial observations were
provided in time to have an impact on the program, we issued an interim memorandum to the Census
Bureau’s Deputy Director and Chief Operating Officer on May 7, 1999. Our interim observations, as
well as our overall review findings, concern the 2000 decennial but some also highlight lessons learned
and issues that may prove to be relevant for the year 2010 decennial.

Census/GSA partnership delivered office space but the bureau needs to make a final
evaluation of the leasing program when it is complete

The Census Bureau and GSA formed a partnership—Joint Venture 2000—as a means to provide the
bureau with leased space equipped to conduct the 2000 decennial. The partnership obtained leases,
oversaw the build-out construction of offices, arranged for security and for data and voice
telecommunications, and provided office equipment and supplies. While LCO office openings were
targeted to be completed in three waves ending September 1, 1999, sufficient time was available to
complete leasing and preparation of offices that did not meet the schedule. By mid-November, all 520
local census offices were operational.

The leasing effort was able to be completed despite two complicating factors: (1) the late finalization of
plans resulting from the bureau’s need to lease more space than anticipated when a ruling by the
Supreme Court limited the use of sampling to non-reapportionment activities, and (2) a strong economy
that created a difficult real estate market in which to obtain some short-term, small office leases as well

                                                     i
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



as the tradespeople and technicians necessary to prepare the space. Both Census and GSA had to
undertake an intensive, sustained effort to deliver the more than 1,000 offices nationwide that are now
serving as the infrastructure for the decennial census (see page 6).

While there were some difficulties in a few regions, Census and GSA worked reasonably well together
to complete this extensive project. The partners have improved communications and working relations
since Phase I office openings in late 1998. However, the partnership has been a complex and
occasionally cumbersome effort, subject to some strains between the agencies. Although the bureau
made an initial assessment of the partnership in the first phase, the bureau also needs to assess its
overall costs, benefits, and results soon after the 2000 decennial is completed to help determine
whether a similar partnership between the bureau and GSA should be used for the 2010 decennial (see
page 9).

There are some lessons to be learned from the bureau’s real estate operations

There are lessons to be learned from the leasing activities for this decennial. The bureau’s real estate
operations could be improved by ensuring that the area of the market search for space for each ELCO
and LCO—the delineated area—is broad enough to ensure adequate competition (see page 14).
Specifically, we found in decennial 2000:

C       Some leases from the initial phase of local office openings were awarded without adequate
        competition. This was largely because a number of the delineated areas were narrowly drawn,
        limiting the number of lessors who could bid on the leases. As a result, at those sites, the lease
        offers were more expensive than anticipated, and Census lost valuable time in again trying to
        find more affordable space. However, the bureau made a concerted effort to broaden its
        delineated areas in the second phase of the leasing operations, in which it acquired leased space
        for 390 LCOs.

C       Greater attention to and standardization of file management across regions would aid
        management oversight and promote better internal record-keeping and retention of records.

The bureau needs to improve planning for decennial leasing and office preparations

The bureau was late in finalizing its programmatic plans. According to the bureau, this was largely due
to the necessity of waiting for resolution of the sampling controversy by the Supreme Court. But the
bureau developed incomplete requirements based on those plans, and sometimes made changes that
disrupted operations. This can be demonstrated in the area of telecommunications: (see page 23).




                                                    ii
U.S. Department of Commerce                                                           Final Report IPE-11573
Office of Inspector General                                                                   September 2000



C       Planning for the telecommunications system should have been better coordinated and more
        focused on the overall requirements. Significant changes to the requirements had to be made to
        add additional lines for job recruiting activity, a more complex call routing subsystem, and voice
        mail. These changes increased telecommunications costs and delayed the planned opening and
        operation of some ELCOs and LCOs.

The bureau needs to expand its use of formal business case analyses

The bureau used formal business case analyses to guide its decisions for the leasing and related
operations. While the analyses were sometimes incomplete, their use as management tools represented
a significant improvement in the bureau’s effort to strengthen its management process (see page 26).

The bureau’s interagency agreement with GSA for the space leasing project still needs to be
signed

The Census Bureau and GSA developed the Joint Venture 2000 partnership through a memorandum of
understanding whereby GSA was to acquire office space and provide telecommunication lines,
furniture, supplies, and office equipment based on requirements specified by the bureau. While the
partnership seemed to work reasonably well, we found some shortcomings in the memorandum of
understanding between the bureau and GSA (see page 28).

C       The agreement for Phase II of the leasing operations still needs to be signed, especially since it
        covers the close-out and property disposition services for the leased offices.

C       The draft Census Bureau partnership agreement does not cover the responsibilities of brokers,
        the extent of their authority, estimated cost for their use, and the responsibilities of the bureau or
        GSA in managing them. This should have been discussed in the MOU to avoid
        misunderstandings or unwarranted costs.

Census could have made greater use of build-out financing

Most of the ELCOs and LCOs must undergo interior alterations (or a “build-out”) to configure those
offices to bureau specifications. The lessor is given the option in negotiations of either including the
build-out cost in the rent or receiving a lump sum payment from GSA upon completion of the build-out
effort and before bureau occupancy. While the lump-sum payment is generally more advantageous to
the government, the bureau made relatively few up-front payments of build-out costs early in the
campaign in order to save resources for the most difficult real estate markets at the end. When we first
reported this observation to the bureau in April 1999, the Census Bureau had a targeted amount of $8
million to use for up-front build-out expenses. We emphasized, and the bureau agreed, that full


                                                      iii
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



commitment of build-out funds could aid in contract negotiations, eliminate the lessors’ approximate 12
percent finance costs (which the lessor then recovered through the contract), encourage more timely
alterations, and maximize cost savings. In the final series of lease agreements, the bureau, through a
prompt directive to the field, took considerably greater advantage of build-out financing and spent a
total of approximately $10 million on it. This enabled the bureau to save over $980,000, including over
$476,000 in funds put to better use since April 1999 (see page 31).



In its response to our draft report, the Census Bureau concurred with all of the recommendations.
Most recommendations, with the exception of recommendation 9, point to the 2010 decennial, and we
are in agreement with the bureau that it should capture the lessons learned from the 2000 decennial,
build on its successes, and make the recommended improvements where necessary. In that regard, the
bureau stated that it plans to initiate an independent evaluation of the partnership with GSA, and it will
use the findings from that evaluation as the primary planning tool for the 2010 space and leasing
program. Census also said that it concurred with recommendation 9, which called for finalization of the
memorandum of understanding between the bureau and GSA for the current decennial, but the bureau
did not say that it would conclude such an agreement. We still believe that such an agreement is
important to protect the department’s interests, especially for the remaining closeout and disposition of
property phase. We reiterate our recommendation that the MOU be finalized between the bureau and
GSA as soon as possible.




                                                    iv
U.S. Department of Commerce                                                      Final Report IPE-11573
Office of Inspector General                                                              September 2000



                                         INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of Inspector
General conducted an inspection of the Decennial Census Field Office Acquisitions Program, focusing
on the Bureau of the Census’s efforts to lease office space around the nation for the 2000 decennial.
We also reviewed certain aspects of the bureau’s acquisition of equipment and supplies needed to
operate these offices and conduct the census.

Inspections are special reviews that the OIG undertakes to provide agency managers with information
about operations, including current and foreseeable problems. Inspections are also performed to detect
and prevent fraud, waste, and abuse and to encourage effective, efficient, and economical operations.
By highlighting problems, the OIG intends to help managers move quickly to address those identified
during the inspection and avoid their recurrence. Inspections may also highlight effective programs or
operations, particularly if they may be useful or adaptable for agency managers or program operations
elsewhere.

We conducted our inspection from January 12 through August 9, 1999, with subsequent updates with
bureau managers through February 2000. The inspection was performed in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency. At
the conclusion of the inspection, we discussed our observations and recommendations with the
bureau’s Deputy Director and Chief Operating Officer, the Special Assistant for Field Logistics
Operations, and the National Program Manager of the Decennial Census Field Office Acquisitions
Program. On May 7, 1999, we provided the Census Bureau with an interim memo on our
observations, including some that required immediate attention. Our recommendations in this review
concern the 2000 decennial but some also highlight lessons learned and issues that may prove to be
relevant for the year 2010 decennial.

                                      PURPOSE AND SCOPE

The purpose of our review was to determine whether the Census Bureau’s acquisition of space and
outfitting of offices by the Decennial Census Field Office Acquisitions Program were being carried out
properly and would be completed on time. The challenges associated with entering into hundreds of
short-term leases for real property across the U.S. and with procuring office equipment and furniture,
within a short time-frame, were great. Such a large effort also exposed the bureau to potential fraud,
waste, and abuse and therefore constituted areas of inquiry for our review. Our overall objective was
to evaluate the bureau’s stewardship of government funds and resources in support of the 2000
decennial leasing effort.




                                                   1
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



The scope of our inspection included reviewing and assessing the bureau’s overall lease-acquisition
strategy, including (1) space requirement estimates, property requests, and project schedules to
determine if, overall, these would result in adequate leased space delivered on time, (2) the adequacy of
and reasonableness of the costs that Census paid for leased space and other acquisition activities,
(3) the adequacy of the acquisition of telecommunications and services, security equipment and
services, and office furniture, and (4) the efficiency, effectiveness, and fairness in contracting for the
space-related items. Our review focused on the leasing and operational preparation of 520 local
offices (130 early-opening local census offices—ELCOs—and 390 local census offices—LCOs)
which accounted for most of the rentable square footage. We did not review the leasing of the 13
Regional Census Centers (RCCs) because they were already up and running at the time of our field
work. We did not visit the 13 Regional Accuracy and Coverage Evaluation Offices, but we monitored
the lease acquisition and office preparation process through interviews with headquarters staff and by
following progress recorded in both Census and GSA Internet-based logistics tracking systems. Nor
did we include the 494 smaller census field offices and block canvassing field offices, the three Data
Capture Centers, or the National Processing Center in the scope of our review.

Census has 12 regional offices located in Atlanta, Boston, Charlotte, Chicago, Dallas, Denver, Detroit,
Kansas City (Missouri), Los Angeles, New York, Philadelphia, and Seattle. To conduct the 2000
decennial, the bureau opened RCCs in each of these regions and in Puerto Rico. As part of our
review, we inspected local office leasing operations handled in six RCCs: Boston, Chicago, Detroit,
Kansas City, New York, and Philadelphia, including onsite visits to 14 ELCOs in the Chicago, Detroit,
Kansas City, and New York regions. In most cases, we had access to the bureau’s detailed leasing
files and reviewed the methodology of the leasing operations.

Our review also included an analysis of the bureau’s interagency agreement with the General Services
Administration (GSA), known as the Joint Venture 2000 Partnership, and of the bureau’s overall
acquisition and procurement processes for the leasing operations, whether conducted through the GSA
partnership or by the bureau’s direct procurement actions. In conducting our review, we examined
correspondence and other documents to determine if the Census/GSA relationship proceeded
effectively enough to award the LCO leases on time and within reasonable costs. In doing so, we
analyzed a sample of real property leases for temporary office space, lease and purchase actions for
office equipment, and the interagency agreements with GSA for supplies and support services. We
also conducted interviews with members of the Census Bureau/GSA “core team,” Census regional
directors and leasing specialists and other staff in six RCCs and visited staff in 14 ELCOs in four
regions: Chicago, Detroit, Kansas City, and New York. We also interviewed a human relations
consultant hired by the partnership.




                                                    2
U.S. Department of Commerce                                                          Final Report IPE-11573
Office of Inspector General                                                                  September 2000



                                            BACKGROUND

The U.S. Constitution requires that a population count be conducted every 10 years for the purpose of
apportioning the seats in the House of Representatives among the states. The Bureau of the Census’s
decennial census, which is the nation’s largest statistical data-gathering program, is also used to allocate
federal funding, and provide essential demographic, economic and social data for businesses,
researchers, educators, governments, and private citizens. In addition, numerous states use decennial
census data to redistrict their state legislatures.

To satisfy both the Congress and the Administration, the Census Bureau initially issued a dual-track
operational plan for the decennial, with one track employing sampling and the other track using
traditional census-taking methods, commonly referred to as “full enumeration.” The bureau had wanted
to employ statistical sampling of non-respondents for all purposes: apportionment, legislative
redistricting, and the allocation of federal funding. It had supported the sampling strategy in the hope of
improving the accuracy of the decennial count while also reducing systematic undercounts. However, in
January of 1999, the Supreme Court ruled that the bureau could not employ statistical sampling for the
apportionment of congressional seats among the states. This decision did not preclude the use of a
sampling process for other purposes, such as state redistricting and allocation of federal funding. After
the Supreme Court ruling, the bureau issued a final operational plan utilizing both a traditional count and
post-enumeration sampling for an accuracy check. The Department’s decision to use both Census-
taking methods affected leasing operations since the decision meant that the bureau would need to hire
more enumerators, acquire additional space to house and manage them, and provide separate space for
quality control involving sampling.

At the time of our review, the bureau had already begun the process of opening and operating a
national network of 1,044 temporary offices from which employees would collect and process the data
for the 2000 decennial. Establishing this office network required the leasing of office space, the leasing
and purchasing of furniture and equipment, the installation of computer hardware and software, and the
establishment of voice and data line telecommunications. As of February 23, 1999, the bureau finalized
its requirements, in accordance with the Supreme Court ruling to follow the traditional, “full
enumeration,” operational plan but also conduct post-enumeration sampling for an accuracy check.

For the first time since the 1970 decennial, Census partnered with GSA to lease space and acquire
telecommunications services, and much of the required office equipment and supplies, for its decennial
offices. The bureau and GSA entered into an agreement, the Joint Venture 2000 partnership, through
which the bureau utilized GSA’s Public Buildings Service for space acquisition, its Federal Technology
Service to obtain telecommunication services, and its Federal Supply Service to obtain supplies and
furniture.


                                                     3
U.S. Department of Commerce                                                              Final Report IPE-11573
Office of Inspector General                                                                      September 2000



Before 1970, Census obtained leased space on its own. In 1970, it enlisted the services of GSA for
the first time but was critical of the quality of some of the space GSA had obtained. Some offices were
reportedly low-grade or in unsafe neighborhoods, although this was due partly to the uneven quality of
available space at that time. As a result of that experience, the bureau decided to conduct its own
space acquisition for the 1980 and 1990 decennials. Due to delays in the 2000 decennial budgetary
allocations connected with the long-standing sampling debate, the bureau was behind schedule in
leasing preparations compared with previous decennials. As a result, the bureau’s Deputy Director
suggested on February 17, 1998, that the bureau form a partnership with GSA for the 2000 decennial.

This partnership was formed and performance measures developed with the involvement of the
National Performance Review.1 The partners hoped that by utilizing their own expertise, greater
efficiencies would result and advantages would accrue to both agencies. The bureau would be able to
focus more on its mission in conducting the decennial, and GSA would be able to demonstrate its
service orientation to a major government client with special needs. The basic division of labor was for
GSA to provide space, telecommunications, supplies, and some office equipment, while the Census
Bureau was to provide lease requirements, specifications, procurement justifications (as required),
some oversight and approval of key decisions, and funding for the direct cost of these goods and
services, plus GSA’s fees.

The bureau developed a plan to open offices sequentially and have them perform major decennial
functions from June 1, 1998, to December 31, 2000 (see the chart on page 6). The plan called for
opening 520 ELCOs and LCOs nationwide as opposed to the 476 that would have been needed had
sampling been used to complete the decennial. These offices were to have been delivered in two
phases, with 130 ELCOs opened by the end of FY 1998 (Phase I), and 390 LCOs opened by the end
of FY 1999 (Phase II). The first phase was operated as a trial run to ensure that the Census/GSA
partnership would produce adequate leased space for the required 130 ELCOs within reasonable time
and cost objectives. The bureau determined that the first phase was a success and continued the Joint
Venture 2000 arrangement with GSA by authorizing the second phase of leasing. The bureau’s office
structure for the full enumeration plan called for 1,044 offices, including the following:

C       13 Regional Census Centers—12 in the continental United States as well as one in Puerto
        Rico—have been open since March 1998. Through a network of Census field offices, the
        RCCs manage all census field data collection operations, such as listing addresses, coordinating
        the Local Update of Census Addresses program, producing and updating maps, working with



        1
         The National Performance Review, now renamed the National Partnership for Reinventing Government, is
the administration’s task force intended to reform major government functions through such initiatives as better
customer service, employee empowerment, partnerships, interagency cooperation, and “reinvention.”

                                                        4
U.S. Department of Commerce                                                              Final Report IPE-11573
Office of Inspector General                                                                      September 2000



        local participants to provide redistricting data to the states, and recruiting temporary field staff. 2
        Each RCC requires a support staff of approximately 135 employees and 14,000 to 26,000
        usable square feet of space.

C       494 Census Field Offices (CFOs) were opened by March 1999 and after completing their
        functions, were closed by August, 1999. These offices conducted local recruiting and
        performed address listing and the subsequent clerical review of address lists. These offices
        required about 500 usable square feet for four employees.

C       520 Local Census Offices were scheduled to be opened, in successive waves, beginning in
        October 1998. Each LCO office, with an average staff of 44, required between 7,000 and
        8,500 usable square feet. The first group of 130 Early Local Census Offices, delivered in
        Phase I, were initially smaller—consisting of approximately 6,000 square feet of usable space
        and had to be expanded during Phase II. Phase II saw the scheduled opening of an additional
        390 of the larger LCOs beginning in September 1999. LCOs produce enumerator maps and
        assignments and conduct local recruiting, block canvassing, outreach and promotion, group
        quarters and service-based enumeration, update leave and enumeration activities, non-response
        follow-up and address verifications.

C       13 Regional Accuracy and Coverage Evaluation Offices (ACEROs) were added on to 13
        LCOs by September 1999. In addition, the 130 existing ELCOs had to be expanded to add
        functionally separate space for the Accuracy and Coverage Evaluation survey, which functions
        as a sampling quality check on the decennial.

C       One National Processing Center and three new Data Capture Centers were opened by
        September 1999. These centers will check in mail returns and electronically collate
        questionnaire data. The National Processing Center, in addition to functioning as a Data
        Capture Center, also processes address lists and questionnaire data.




        2
         These functions are authorized by Public Law 94-171, the Redistricting Data Program. See also Bureau of
the Census, “Census 2000 Operational Plan,” February 23, 1999.

                                                        5
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



                     Decennial 2000 Office Occupancy by Quarter

                      1998                     1999                                2000
P          3rd Qtr            4th Qtr 1st Qtr 2nd Qtr 3rd Qtr   4th Qtr 1st Qtr   2nd Qtr 3rd Qtr 4th Qtr
H Wave 1 86 CFOs
A
S Wave 2 196 CFOs
E
     Wave 3 120 CFOs
 I
     Wave 4   130 ELCOs

P Wave 5 29 CFOs
H
A Wave 6 38 CFOs
S
E Wave 7 25 CFOs

 II Wave 8 13 ACEROs

     Wave 9   133 LCOs

     Wave 10 115   LCOs

     Wave 11 142   LCOs



Our review, as noted previously, focused on the largest category of the bureau’s leased space, the 520
ELCOs and LCOs, totaling over 3.9 million square feet of usable space spread throughout the United
States and costing $133,986,874 in FY 1999-2000. As shown in the chart above, the procurement of
these 520 ELCOs and LCOs was organized into two phases and four waves (waves 4, 9, 10, and 11)
within those phases.

The Acquisition Process

Upon initiating the Phase II LCO leasing operations, the bureau attempted to standardize the site survey
process in the hopes of consistently obtaining leased space at reasonable prices. GSA first determined
the availability of government-owned or already leased space which could be used for a census office.


                                                   6
U.S. Department of Commerce                                                       Final Report IPE-11573
Office of Inspector General                                                               September 2000



When government-controlled space was not available, GSA and the bureau jointly identified available
privately owned space and went about acquiring it.

To promote competition, this process called for conducting market surveys of potential sites, with the
most favorable sites receiving a solicitation from GSA to make an offer to the government—a
Solicitation for Offer (SFO). This process can be visualized as a funnel in which the selection of
options for office space is progressively narrowed (see figure 1).


                                  Figure 1 - The Acquisition Funnel


                                         Sites Surveyed




                                          Sites Approved




                                         Solicitations for
                                          Offers Issued




                                            Offers Made




                                              Best Offer
                                              Accepted




                                                   7
U.S. Department of Commerce                                                       Final Report IPE-11573
Office of Inspector General                                                               September 2000



Generally, the more options that Census has in each stage of the acquisition process—such as the more
sites surveyed, the identification of many eligible sites, or the more SFOs sent out—the more offers
generated, and, hence, the more alternatives available for the bureau at competitive prices. Site surveys
constitute an especially important stage because surveying a large number of sites allows the bureau and
GSA to better pinpoint the most desirable properties, and to better choose those sites that should
receive SFOs. If a number of quality offers are generated, the bureau is then in a good position to state
its preferences and to allow GSA to bargain for and obtain preferred space at a good price.




                                                    8
U.S. Department of Commerce                                                            Final Report IPE-11573
Office of Inspector General                                                                    September 2000



                               OBSERVATIONS AND CONCLUSIONS

I.      Census/GSA Partnership Delivered Office Space but the Bureau Needs
        to Make a Final Evaluation of the Leasing Program When It Is Complete

All 520 ELCO and LCO Census offices were successfully opened. Working under guidelines set by
the bureau and with the aid of the bureau’s own leasing specialists, the Census/GSA partnership
succeeded in leasing, overseeing the build-out of offices, arranging for data and voice
telecommunications and security systems, and providing office equipment and supplies. This was done
reasonably on schedule although there were glitches and slippages, as can be expected in an
undertaking of this magnitude. Lessons learned from Phase I leasing helped the bureau tackle the later
phase of leasing and office preparation. Despite slippages and some later reports of office quality
problems, we found that offices of good or at least reasonable quality were opened in sufficient time to
not jeopardize operations. However, the Census/GSA collaboration, given the scope of the effort, was
not easy. We are recommending that the bureau evaluate the overall results of its collaboration with
GSA shortly after the 2000 decennial offices are closed, to help make an early decision on whether the
bureau wishes to employ a similar leasing strategy for the 2010 decennial.

Offices Opened in Time for Operations

The partnership clearly learned important lessons from Phase I and adapted its operations for Phase II.
As the Director of the Census Bureau testified in early 2000,3 the partnership had to secure these
decennial office leases while the nation experienced a strong economy. It was more difficult to obtain
short-term, small office leases in a tight real estate market. More time and effort, therefore, had to be
spent both by the bureau and GSA staff in locating sites and negotiating leases. The office preparation
process was harder to manage in a period when carpenters, electricians, plumbers, and telephone and
computer technicians were also in short supply due to the construction boom. However, none of these
difficult conditions proved insurmountable.

Census learned from the experience of Phase I that the partnership’s resources were stretched thin in
efforts to open all 130 ELCOs by October 1, 1998. Thus, it knew that it would not be able to open
the remaining 390 offices by a single target date. The partnership planned to open the 390 LCOs in
three successive waves with initial target dates of July 1, August 1, and September 1, 1999, with some


        3
         Prepared Testimony of Dr. Kenneth Prewitt, Director, U.S. Bureau of the Census, at the U.S. House of
Representatives Committee on Government Reform, Subcommittee on the Census, Hearing on Preparations for the
Decennial Census, February 8, 2000.

                                                       9
U.S. Department of Commerce                                                                Final Report IPE-11573
Office of Inspector General                                                                        September 2000



leeway after those dates for the completion of late offices. Although 17 Phase I offices were not open
by October 1, 1998, only 12 Phase II offices did not meet the September 1, 1999 target date. In other
words, in Phase I, 13 percent of LCOs did not meet the target date, while in Phase II, only 3 percent
were not opened by the three scheduled dates.

The New York region, with its overheated real estate market, had some of the most difficult problems
in securing adequate space, delaying the start of build-out and telecommunications installations. The
Seattle region had delays due to the phone installation contractors. Other dense metropolitan
regions—Boston, Los Angeles and Chicago—had similar but less daunting challenges. By June 15,
1999, 18 out of the remaining 390 offices had serious “red-flag” problems and were in danger of the
lease not being secured or the office not being able to open. The problems included such things as
disputes over the terms of the lease, deals falling through, the search for alternative space, or
unavailable contractors. By July 15, the red-flags had been reduced to 9, but cautionary “yellow flags”
concerning potentially disruptive details of LCO preparation were on the upswing from 17 in mid-June
to 35 in mid-July. More than half of the red-flags (5 out of 9) were in one region—New York.4
Nonetheless, by mid-November, with the exception of the LCO in Glendale, California, which had
delays connected with the city permitting process, all 520 local census offices nationwide were
operational.

During October and November, 1999, the bureau did not need a full staff and was hiring “skeleton
crews” for each LCO—an LCO manager, 3 assistant managers for recruiting, administration, and field
operations, respectively, and an administrative assistant—who set up their offices and launched
personnel recruiting drives. If an office was not open in October or early November, the staff was able
to use nearby LCOs to do recruiting work. The full office staff of 44 temporary workers was not
needed at each LCO until December, so a sufficient time margin was available to bring on line those
offices that were not yet operational by the target opening date. These margins were
August–September for waves 9 and 10 with target opening dates of July 1 or August 1, 1999, and
October–mid-November for the final wave 11 with a September 1, 1999, target date.

While outside the scope of this review, we note that in the period from June 1, 1998, to March 1,
1999, the partnership also opened 494 census field offices and block canvas field offices. These were
considerably smaller store-front style spaces, reportedly not nearly as difficult for the partnership to
lease. In addition, as a result of the bureau’s new operational plan for a traditional count with a
sampling quality check, each of the original 130 ELCOs needed approximately 1000 more square feet

        4
          Not all of the New York offices turned out to be adequate and problems persist. In late February, the
bureau was reportedly attempting to correct persistent problems at the Harlem LCO with trash, rodents, plumbing
leaks, a malfunctioning sprinkler system, and frequent lack of running water. The bureau is considering a move if
necessary.

                                                        10
U.S. Department of Commerce                                                           Final Report IPE-11573
Office of Inspector General                                                                   September 2000



of space for an additional room with a separate entrance for Accuracy and Coverage Evaluation
activities and more storage space. Combined with the need for the 13 new ACEROs, the expanded
ELCOs constituted an additional 143 expansion projects for the partnership to complete in addition to
the 1015 offices already planned and in various stages of leasing. At the end of February 2000, only 4
of the expansion projects had not been completed.

The Seattle Region had the most difficulty nationwide with the inefficiency of its telecommunications
contractors. Telecommunication installation in the nation’s Pacific Northwest was often delayed
because of the long distances installers or repair personnel had to travel. A total of 17,000 telephone
lines nationwide were installed and are operational.

In our visits to 14 ELCOs, we found that the offices provided pleasant and well-designed space with
acceptable layout and apparently good workflow, although one ELCO was a bit crowded. There
were acceptable lavatory facilities in 12 of the14 offices, but one office had frequent problems with the
residential-grade toilets that had been installed, and another ELCO had the lavatories inconveniently
located. We found a functional mix of permanent and disposable furniture, operating security systems,
and acceptable public access or parking space at all offices. Staff were attending to all the above
problems. We also found safety concerns, given the location of one ELCO in a high-crime area, some
computer problems still being worked on, a high noise level in one Chicago LCO, and, at all ELCOs
visited, problems with telephone systems (see page 22).

A Working Partnership

Each regional Census/GSA partnership had to be forged at the local level, where staff adjusted their
roles to those of their partners and to the specific requirements, obstacles, and work pressures faced in
getting the offices open. Overall, the partnership with GSA appeared to be working and improved as
the initial group of offices were secured. The Field Division actively monitored the dynamics and
effectiveness of the partnership at the regional level, and took steps to improve working relations
between the bureau and GSA in a few regions in Phase II. A consultant 5 identified both strengths and
weaknesses in the leasing process, thereby enabling the Joint Venture 2000 national core team to clarify
roles in Phase II and strengthen collaboration in those regions that were having difficulties. Given the
intensity and demands of their task, there were a few understandable strains, discussed below, but
Census and GSA staffs were able to get the job done according to the bureau’s stringent requirements
and within an acceptable schedule.



        5
       Monroe-Cook & Associates, “Presentation Report: Qualitative Evaluation of Joint Venture 2000
Communications Perspective,” September 1998.

                                                     11
U.S. Department of Commerce                                                               Final Report IPE-11573
Office of Inspector General                                                                       September 2000



Although each regional partnership was subject to the same demanding timetable, in many regions
communications and cooperation were quite good, but in some regions the strains of the acquisition
process affected the level of communication and the willingness of the partners to act as a team. Team
members also developed contrasting perspectives on the partnership, which contributed to tensions in
some regions during Phase I and less so in Phase II. Census Bureau leasing specialists and project
managers, for example, sometimes believed that GSA often emphasized getting the job done at the
expense of “getting it done right.” GSA staff and managers, on the other hand, tended to believe that
bureau staff often emphasized procedure and doing more searching than necessary at the expense of
getting the job done efficiently. They were under pressure to get their Census work done quickly,
because, as they put it, the bureau was “not our only client.” In a few regions, bureau staff and
managers felt that GSA was treating them as just another client, not as the “prime customer” as GSA
had promised. In part, these misperceptions between GSA and the bureau resulted from Census needs
and requirements not being communicated by GSA managers down to their street-level staff, a flaw that
was largely corrected in Phase II.

The partnership management team devised a division of labor that was incorporated in the MOU but
the matter of oversight was not addressed. From a consultant’s partnership surveys 6 and our
interviews, we learned that bureau staff in a number of regions and in both phases expressed varying
degrees of dissatisfaction with such matters as their limited participation in market surveys and the
amount of information shared between Census and GSA. GSA managers and staff, however,
occasionally felt constrained both by the many bureau requirements—such as the need for a good
location in relation to population, public access, and, if possible, a modern infrastructure that would
support computers—and the bureau staff’s double-checking. In Phase II, these tensions and
communications problems were considerably alleviated by weekly partnership team meetings allowing
each side to feel far more comfortable with their partner’s mode of operation.

Overall, tensions varied across regions, but tended to be higher in those activities where Census and
GSA regional team members had overlapping responsibilities (see appendix, page 36). We found that
differences arose between the bureau and GSA’s Public Building Service on tasks that required the
most collaboration, such as market surveys or the evaluation of offers from potential lessors. Bureau
staff often questioned whether (1) the market survey included enough good choices, (2) offers were
coming in at a favorable or reasonable price, and (3) GSA was obtaining the best deal for the bureau.
In one region, GSA management replaced a project director to keep the relationship with the bureau
flexible and communications open. In most regions however, teams were able to work things out,


        6
         Surveys conducted by Alternative Solutions, Inc., a partnership contractor, were cited in “Securing Space
and Services to Support Field Operations: A Business Case Analysis,” U.S. Bureau of the Census, November 1998.

                                                        12
U.S. Department of Commerce                                                                   Final Report IPE-11573
Office of Inspector General                                                                           September 2000



maintain good working relationships, and overcome the largely surmountable difficulties that accompany
high-pressure collaborative work of this kind and reflect normal frustrations with an unwieldy
partnership tasked with completing a large project on a fixed schedule.

The bureau should assess the benefits and costs of its partnership with GSA

The question remains whether a similar partnership between the bureau and GSA, or a modified
arrangement, should be used to secure leased space for the 2010 decennial. Although the bureau made
an initial assessment of the partnership,7 before retaining GSA as its partner and agent in Phase II, the
overall costs, benefits, and results of the partnership still need to be assessed either by the bureau or by
an independent party soon after the 2000 decennial is completed.



In responding to our draft report, the Census Bureau concurs with our recommendation that an
evaluation of the Census/GSA partnership model should be performed. The Bureau intends to initiate
such an evaluation by an independent party after the completed closing of the LCOs in the fall of 2000
and to use the findings from the evaluation as the primary planning tool for the 2010 space and leasing
program. The bureau agrees with our assessment that the partnership learned important lessons from
Phase I of the agreement and successfully adapted its operations for Phase II.




         7
          Alternative Solutions, Inc. positively characterized the partnership in Phase I. This was cited in the
Business Case Analysis, U.S. Bureau of the Census, November 1998. See also Monroe-Cook & Associates,
“Evaluation of Joint Venture 2000,” September 1998.

                                                          13
U.S. Department of Commerce                                                                  Final Report IPE-11573
Office of Inspector General                                                                          September 2000



II.      There Are Some Lessons to Be Learned from the Bureau’s Real Estate Operations

While the Census/GSA partnership did succeed in getting all of the LCOs open before the end of
November, there are some “lessons learned” and best practices that can be applied during the 2010
decennial. For example, during the initial phases of the ELCO/LCO leasing program, the bureau
sometimes limited its ability to obtain leased space by defining ELCO delineated boundaries too
narrowly. However, we found that Phase II leasing efforts were significantly improved because the
bureau expanded the size of the geographical areas it considered for obtaining leased space. In
addition, we noted that RCC leasing-related file management should be improved.

A.       The bureau initially drew lease delineated areas too narrowly

A number of leases from the initial phase of local office openings were awarded without adequate
competition. This lack of competition resulted primarily from the fact that many of the delineated areas
for specific leases were narrowly drawn, thereby limiting the number of lessors who could bid on the
leases. As a result, at a number of sites, the leases were more expensive than anticipated, and the
Census Bureau had to expand its delineated areas and begin the lease acquisition process again. This
lost valuable time.

Delineated areas refer to the specified geographic area within which the government will consider
renting office space. It was the Census Bureau’s responsibility to define the delineated area for each
local census office for GSA. GSA and, in some regions, bureau personnel conducted market surveys
within the delineated area to identify potential lessors. Once potential offerors were identified, a
solicitation was prepared by GSA, citing the delineated area identified that is then issued only to the
identified potential offerors. Once received, formal offers were then negotiated until one site was
chosen for the ELCO or LCO, representing what was supposed to be the best overall value to the
government.8

The delineated areas were developed by the bureau based on the combination of several factors such
as population density and dispersal, public access, and logistical considerations (which were especially
important in geographically large, thinly populated congressional districts). The bureau had a stated
goal of placing at least one ELCO or LCO in each congressional district and the ELCO/LCO coverage
areas often correlate closely with existing congressional districts. Nevertheless, Census had sound
protocols for setting ELCO/LCO boundaries and these boundaries did not always match those of


         8
           Normally, the federal government would advertise its lease requirements for a given delineated area before
the issuance of a solicitation to maximize interest among potential lessors. In the case of the decennial, however, the
bureau and GSA opted to rely on market surveys because of the large number and relatively small size of offices to
be leased.

                                                          14
U.S. Department of Commerce                                                                Final Report IPE-11573
Office of Inspector General                                                                        September 2000



congressional districts. The ELCO/LCO coverage area boundaries were modified by interim estimates
of population and households so that ELCO and LCO offices could be centrally located, where
possible.

In planning Phase I ELCOs, several regional offices drew some delineated areas too narrowly in an
attempt to precisely place offices. This created problems, initially, in the effort to secure office space at
a reasonable cost and within acceptable time frames. For instance, the ELCO in Norristown,
Pennsylvania, an outlying suburb of Philadelphia, had only one lessor submit an offer because the
delineated area was limited to the municipal boundaries of Norristown (see figure 2). Norristown is
only one of several municipalities within the area where the ELCO could have been placed.

The Norristown lease is expensive for the area. The landlord originally quoted $29.50/square foot,
more than 13 percent over the highest average class A office space in Philadelphia.9 The
$29.50/square foot quote included unlimited heating, ventilation and air conditioning (HVAC) and
unlimited use of the 6,600 square foot (usable) space. The bureau—through GSA—entered into
negotiations and rejected this offer as too high. However, the landlord persisted through hard
bargaining and charged additional costs for overtime HVAC and daytime janitorial services.

The bureau and GSA estimate that the lease as signed will cost approximately $27.60/square foot, but
if the office sees heavy overtime usage, the cost could be considerably higher. For instance, overtime
HVAC of $20/hour for only 10 hours each week would add an overtime utility cost of $10,400, or
approximately $1.50 square foot in additional rent for the 24-month lease. Nonetheless, the bureau
agreed to the lease because the Norristown ELCO was already behind schedule, and the bureau was
reluctant to take the additional time needed to expand the delineated area and start over.




        9
           Society of Industrial and Office Realtors, Comparative Statistics of Industrial and Office Real Estate
Markets, 1998, page 290. This is the same data that the bureau used in developing its baseline leasing budget and
Phase II leasing study.

                                                        15
U.S. Department of Commerce                                                         Final Report IPE-11573
Office of Inspector General                                                                 September 2000



   Figure 4: Delineated Area Within the Norristown, Pennsylvania, LCO Boundaries
                                                                               Legend
                                                                        Census ELCO
                                                                        Congressional District
                                                                  ,,    LCO Boundary
                                                                        Delineated Area
                                                                        LCO Coverage Area




Another example is the small delineated area specified for the ELCO in Troy, Michigan, a northern
suburb of the city of Detroit (see figure 3). Regional bureau personnel in Detroit believed that one
particular light industrial center was well situated for the office in terms of population distribution and
logistical placement. They assumed that at least one of the landlords in this industrial center would
make space available for the ELCO. The delineated area was therefore drawn to encompass this
particular business center which covered only one third of a square mile. The area also included a small
municipal airport, further reducing the number of potential landlords.




                                                    16
U.S. Department of Commerce                                                                  Final Report IPE-11573
Office of Inspector General                                                                          September 2000



However, when GSA and the bureau contacted potential lessors, none were interested in leasing to the
government. A lease was later signed on another property located outside the original delineated area,
but only after a significant delay.10 The office did not open on schedule. In fact, the Troy ELCO was
the last ELCO in the nation to begin operations. The impact of this was that temporary bureau
employees were not hired in time and key operations were delayed, including block canvassing. During
our inspection, we observed temporary decennial workers who had been bused in 255 miles from
Cincinnati, Ohio, because of the shortage of local workers.

As a result of narrowly defined delineated areas during Phase I, the bureau’s options of available lease
space were limited, resulting in higher costs—as was the case with the Norristown ELCO. In other
cases, such as the Troy ELCO, the bureau had to expand the delineated areas and repeat its effort to
acquire space, which compressed the available lead time before the offices were due to open. This led
to higher costs and delays in operations in Phase I.




         10
            Class A Detroit office space outside the central business district ranges in cost from $18/square foot to
$24/square foot. The Troy ELCO was leased at an annual rate of approximately $18.50/sf. See the Society of
Industrial and Office Realtors, Comparative Statistics of Industrial and Office Real Estate Markets, 1998, page 230.

                                                          17
U.S. Department of Commerce                                        Final Report IPE-11573
Office of Inspector General                                                September 2000




Figure 3 - Troy Michigan ELCO Boundary and the Original Delineated Area




                                         18
U.S. Department of Commerce                                                                   Final Report IPE-11573
Office of Inspector General                                                                           September 2000



We noted a concerted effort by Census to broaden its delineated areas in Phase II of the leasing
operations for the acquisition of leased space for 390 LCOs. Rather than describing narrow
areas—sometimes with a block-by-block description—entire groups of municipalities have been used
as delineated areas for many Phase II LCOs. The result has been greater competition and relatively
greater access to space while maintaining the required leasing schedule.11

We recommend that in the 2010 decennial, the bureau draw its delineated areas as broadly as possible
to increase competition between potential offerors for LCO lease space. This greater competition
should not only reduce the bureau’s overall lease costs, but should also ensure that it has alternative
space available when unforeseen difficulties prevent a lease award.



The Census Bureau, in responding to our draft report, agreed with our recommendation to draw
delineated areas as broadly as possible in the 2010 decennial. The bureau states that it will make
additional efforts in 2010 to address the issue of adequate competition in the lease acquisition process,
based, in part, on the Census 2000 experience. The bureau commented that initially smaller boundaries
were draw in Phase I with the intention of expanding these boundaries where necessary. The bureau
noted, however, that with the accelerated schedule and the late start of the actual space acquisition
process, GSA did not have time in Phase I to conduct additional market surveys as the delineated areas
were expanded—a problem that was corrected in Phase II by drawing larger boundaries from the
outset.

B.   The lease project needs to improve file management

Department of Commerce bureaus are required to maintain adequate and easily retrievable
documentation of their essential transactions.12 The bureau’s leasing files, however, varied in quality
between regions and were often not complete. Complete and organized files were necessary for the
bureau to (1) maintain oversight and management of the leasing and build-out process, (2) ensure and
document a fair and transparent process of competition, (3) record transactions between the bureau
and GSA, and (4) fulfill its responsibilities as a lessee. Pressures to acquire leased space, however,
tended to push staff to set aside the work of maintaining files. Although both partners must keep their
own files, the Census Bureau tended to rely on GSA since GSA is obliged to keep the complete

            11
              Unfortunately, some of these gains have not been realized due to delays in installing telecommunications
services.

            12
              U.S. Department of Commerce, Department Administrative Order (DAO) 205-1, Section 4.01.

                                                           19
U.S. Department of Commerce                                                              Final Report IPE-11573
Office of Inspector General                                                                      September 2000



original contractual files. Census headquarters did not insist on a standard method of maintaining the
files and did not develop standards for file contents until Phase II.

The bureau’s working files need not be identical to GSA’s, but they should be adequate for the bureau
to maintain proper oversight of the leasing process and to manage its responsibilities as the tenant of
leased properties. To maintain oversight of the leasing and build-out process, the bureau should have
on hand and keep essential documents, such as abstracts of Solicitations for Offers (SFOs), abstracts
of offers, copies of the leases and amendments to leases, floor plans, as well as necessary documents
relating to the installation of high-speed data circuit lines, the telephone system, security system, build-
out plans, construction progress, and delivery of furniture and supplies. According to the Joint Venture
2000 definition of roles in the LCO space acquisition process (see page 36), the bureau had specific
responsibilities to conduct market survey inspections, assess security requirements, collect crime
statistics, prepare architectural drawings, approve SFOs, and approve the final offer. Documentation
of these agreements and activities is necessary for the bureau to manage the leasing process, resolve
disputes, and oversee GSA’s activities on behalf of the bureau.

The completeness and the organization of files varied among the regions we visited. In some regions,
the files concerning leased properties were largely complete with just a few items missing, but in other
regions some key documents were missing from all folders. Most of these were working documents,
but some documents, such as occupancy agreements, should be retained according to the applicable
record schedule.13 Some regions had organized series of folders and indexes, while other regions had
workable but less structured systems of organization. Most regions’ files were organized by office
leased, but one region had files organized by functional document, such as leases or occupancy
agreements.

The Phase II “kick-off” meeting included a number of useful checklists and tables assigning
responsibility for the work on each LCO site. However, we found that the regional personnel were not
always using these tools to guide their work nor keeping them as records. In the Chicago RCC,
records were in good order, but in the other RCCs visited we found the following:




        13
           The retention and disposal of types of documents common to several agencies is authorized by the
General Records Schedule. For instance, routine procurement files should be destroyed 6 years and 3 months after
final payment, while supply management files should be destroyed when 2 years old. See General Records
Schedule 3, National Archives and Records Administration, transmittal No. 8, December 1998, pages 3-4. In
addition, agencies must keep their own record schedules to cover the management of agency-specific documents.

                                                       20
U.S. Department of Commerce                                                           Final Report IPE-11573
Office of Inspector General                                                                   September 2000



C       In the Philadelphia RCC, there were no delineated area maps or other description of the
        delineated areas in four out of 12 ELCO files. Maps indicating the delineated areas should
        have been included in the SFOs and retained in the files.

C       In the Detroit RCC, efforts were made to make the files complete, but essential documents
        such as occupancy agreements and some survey information, requested from GSA, had not
        been received.

C       In New York RCC, potential sites were hard to find, so few surveys had been done. Even so,
        the files held incomplete survey information. A leasing specialist informed us that the regional
        office had requested survey documents and occupancy agreements from GSA on a number of
        occasions, but not all the documents had been provided.

C       In the Kansas City RCC, the files were orderly, highly organized, and essentially complete.
        Two occupancy agreements for government leased-space, however, had not been sent by
        GSA regional staff to the RCC prior to occupancy and had not been signed by the assistant
        regional census manager even though the bureau had already taken occupancy of the space.

C       In the Boston RCC, the available files that we examined were meticulous, but contained only
        copies of the occupancy agreements and the leases. There were no surveys or correspondence
        included in the files that we reviewed. We were later informed that other files, the day-to-day
        working files, were not made available for our inspection.

The bureau cited a number of reasons for these inconsistencies. First, the bureau and GSA were
primarily focused on securing leased space. The maintenance of files was not as obvious or critical as
other documentation systems, such as the on-line Intranet schedule tracking or cost reporting system,
even though the contents of the files may undergird those systems. Even through the headquarters Field
Division emphasized the need to maintain files early in the leasing process, and sent a memo to Census
regions mid-way in Phase II instructing them to clean up their files, some regions still found little time for
routine file maintenance. Second, since bureau staffers were aware that complete files were kept by
GSA, they did not always insist on obtaining copies of relevant documents for their own files. Finally, in
some regions, either the bureau was slow to request copies of essential documents from GSA, or GSA
was reportedly slow or failed to send requested copies.

When essential file documents or information are missing, the bureau lacks the detailed information
necessary for management oversight and appropriate internal record-keeping. There may not be
enough information in the files to either understand or resolve matters, especially in cases of
disagreements between the bureau and GSA. In addition, the bureau may be failing to retain

                                                     21
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



documents it is requested to maintain by either a general or Census-specific record retention schedule.
Accurate records are essential in all phases of leasing, including the build-out, telecommunications and
tenancy phases. Greater standardization of census leasing file management should be prescribed and
overseen by the Field Division.



In responding to our draft report, the Census Bureau concurs with our recommendation to create a
standardized system of file management for use in all Regional Census Centers in the 2010 decennial
leasing operations and to ensure that staff comply with applicable record retention schedules. We trust
that the bureau will also emphasize full compliance with such a standardized system of file management.
The bureau also notes that the Field Division’s regional space leasing staff are finalizing an action plan
for the retention of the 2000 decennial lease files in accordance with record retention requirements and
the 2010 evaluation and planning needs, and have begun work with the Regional Census Centers
(RCCs) and GSA to do so.




                                                    22
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



III.    The Bureau Needs to Improve Planning for Decennial Leasing and Office
        Preparations

The budget and programmatic uncertainty stemming from the sampling controversy made decennial
planning more difficult and protracted. Once the Supreme Court’s decision came in January 1999, the
bureau was under considerable pressure to finalize plans and regain lost time. We found that in
telecommunications, especially, Census developed less than complete requirements and then had to
make necessary changes to plans, which sometimes disrupted operations and adversely affected the
lease project’s cost and schedule, or both. We also note that planning has been aided through the use
of formal business case analyses.
A.      Improved planning for telecommunications is needed

The bureau had to make significant changes to its requirements for the telecommunications system once
it became apparent that the original plans and estimates of telephone usage were inadequate. In
addition, because of budget uncertainty, spending for the telecommunications system was initially
conservative and not sufficiently focused on overall system requirements. As a result, the bureau’s
telecommunications contractors had to install additional lines for job recruiting, a more complex call
routing subsystem, and voice mail. These changes increased telecommunications costs and delayed the
planned opening and operation of some ELCOs and LCOs.

Conducting the 2000 decennial requires the extensive use of sophisticated telecommunication systems.
Telecommunications technology is necessary for data collection from the public, interoffice
communication, recruiting, and computer data transfer among offices. Without well functioning
telecommunications systems, the ELCOs and LCOs cannot operate effectively and adequately support
the decennial. We found significant problems with the systems planning for voice telecommunications in
the bureau’s ELCOs and LCOs. We observed that the ELCOs did not have enough lines and system
capacity to handle a large volume of calls. Two other commonly cited system problems (not user error)
were dropped calls during transfer and unanswered calls routed to other phones in a seemingly random
pattern.

The bureau made numerous incremental changes to the LCO telecommunications requirements,
complicating telecommunications system design and installation. One example of changing requirements
was a job recruiting line with an 800 number that was originally planned to service all potential recruits
for temporary jobs. However, approximately 5 months after installation of the original system, bureau
officials found that the high capacity line was inadequate because it could not handle the enlarged
volume of calls. As a result, the bureau had to reroute all recruitment calls automatically to the nearest
ELCO or LCO. This change caused other requirements to change. For instance, all ELCOs and



                                                   23
U.S. Department of Commerce                                                         Final Report IPE-11573
Office of Inspector General                                                                 September 2000



LCOs had to be fitted with voice mail to handle job line calls that came in after hours or when all their
lines were busy.

Inadequate bureau planning was the principal cause of this problem. For example, to determine the
capacity needed for the telecommunications system, the Decennial Recruiting Office had to estimate the
number of temporary staff and the number of calls that the staff would be generating and receiving. The
bureau required input from regional offices, the Decennial Field Operations Office, the Partnership
Office, the PAMS/ADAMS Division, and at least six other bureau offices to determine how much
capacity would be needed for the system. Unfortunately, the process for collecting the data was not
well organized. The offices submitted their data to bureau planners at different times, often making
changes afterwards. This rather undisciplined effort resulted in incorrect estimates.

Another important reason the requirements kept changing was budgetary uncertainty. Ongoing
disagreements over decennial operations and funding between the Administration and the Congress led
to delays in, and uncertainty regarding, the bureau’s future budgetary allocations. As a result, the
bureau tended to spend conservatively on its systems and to design the system to match its perceived
budget, rather than to meet the estimated technical needs of the ELCOs/LCOs.

Finally, often inadequate coordination of installation services between the telecommunications vendors
and GSA or bureau personnel resulted in many wasted hours of government employee time and
increased contractor costs. During deployment of the system in the ELCOs, the bureau used more than
55 installation subcontractors of widely differing ability, causing installation delays and operational
disruptions at some ELCOs. Many offices required a second or third visit from the vendor to correct
problems with the phone system.

Other telecommunications problems were highlighted in the bureau’s documents and include:

C       ELCO staff reported difficulty in adapting to the new, more complex, telephone system—due
        to a lack of sufficient training and hands-on experience with the new system.

C       The original system was badly configured and calls frequently could not be routed to the
        intended recipient, resulting in inefficient interoffice communications.

C       The original contractor required a significant cost increase to provide voice mail in each LCO
        and was unable to provide two additional phone lines for each of the Accuracy and Coverage
        Evaluation offices needed under the finalized plan.




                                                    24
U.S. Department of Commerce                                                         Final Report IPE-11573
Office of Inspector General                                                                 September 2000



The cumulative effect of these problems was that the telecommunications system originally deployed in
the ELCOs had to be completely replaced by a new system approximately 5 months after the first
installation. The old system’s configuration problems and insufficient capacity to meet the bureau’s
existing and continually expanding decennial 2000 requirements made it inadequate. The cost of the
system that was replaced, including additional costs for wiring and servicing that system, was at least $7
million. The new system, a more capable model from the same manufacturer, appeared to meet the
bureau’s requirements. However, deployment delays and increased costs have also occurred with the
new system. Managers in the bureau’s Telecommunications Office estimated that as a result of the
delays, 5 to10 percent of the LCOs’ telecommunications were not operational according to schedule.

Clearly, the bureau needs to plan its telecommunications system requirements more thoroughly to
minimize changes. Bureau officials have suggested that the changing telecommunications requirements
stemmed from the Supreme Court’s January 1999 ruling. While it is true that more phone capacity was
needed for additional LCOs required by the ruling, the need for greater jobs line capacity and voice
mail existed before the court decision, according to officials in the Department’s Office of
Telecommunications Management (OTM).

For the next decennial, the bureau should provide better centralized coordination of the many offices
that supply information needed for planning its telecommunication system capacity requirements well in
advance of the leasing of its field offices and be able to promptly inform planners of any changes in their
needs. Additionally, the bureau should coordinate planning with the OTM and provide the OTM with a
detailed plan for the 2010 telecommunications procurement and systems deployment before the
systems are purchased so that it may analyze and provide advice to improve the overall plan. The
bureau should also regularly update OTM as the systems procurement and deployment unfold in
preparation for the 2010 decennial.



In responding to our draft report, the Census Bureau concurred with three of our recommendations: a)
to ensure that lessons learned from the installation of telecommunications systems in the 2000 decennial
are captured for the 2010 decennial; b) to ensure that there is early and centralized coordination and
gathering of information on offices’ capacity requirements for the 2010 decennial census; and c) to
coordinate with and provide the Department’s Office of Telecommunications Management (OTM) with
a detailed plan for 2010 telecommunications procurement and systems deployment before any systems
are purchased. The bureau noted that the decision to open the ELCOs one year earlier than scheduled
had an adverse impact on the evaluation and planning for capacity requirements, and that the process of
planning for the decennial 2000 telecommunication system would have benefitted from more centralized



                                                    25
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



coordination and better communications between the headquarters offices, the RCCs, and the local
offices.

B.    The bureau should improve its use of formal business case analyses

To guide its process for making critical decisions related to the 2000 decennial, Census started using a
systematic case approach—known as formal business case analysis—to guide its decision-making, help
the bureau assess the results of Phase I, and move to Phase II. We found this trend to be a positive
development and encourage the bureau to formalize and expand the use of such analyses to make
formal justifications easier, improve accountability for managers and resources, and arrive at well-
informed decisions. However, we also observed that the business case analysis process used in leasing
and contractual decision-making were sometimes flawed because the analyses were not complete or
the options studied were limited.

For example, when the bureau realized that it was having problems with its Phase I (ELCO)
telecommunications, it drafted a business case analysis to lay out the problems with the system and the
options available to correct them. The draft business case document listed the options of hiring different
contractors to finish the deployment of LCO telecommunications systems and indicated that using two
different contracting options would result in a higher quality system at a lower cost. The draft document
appropriately laid out three options for addressing the telecommunications problems. However, the
bureau never finalized the document and ultimately chose an option that—while not a great departure
from the listed options—was not included in the draft document.

Insufficient planning was primarily responsible for the implementation of the original inadequate
telecommunications system. In considering replacement of the system, the bureau should have
accurately detailed all of the options available and then finalized its planning documents for Census
management’s review and to help ensure that managers have all relevant information available to them
when making final decisions (see page 23).

In a second example, Census developed a business case for proceeding from Phase I to Phase II of the
Joint Venture 2000 leasing partnership. This analysis provided considerable detail on the actual costs
that the bureau was incurring in Phase I and forecast the expected cost of continuing with GSA into
Phase II. However, the business case included flawed assumptions in its analysis to proceed to Phase
II of the lease project. Specifically, the Phase II business case analysis used cost estimates for Class A
office space by geographic region. In reality, the ideal space needed by Census was light industrial and
strip mall-retail which is typically less expensive than Class A office space. As a result, the Phase II
analysis overestimated costs, as well as the savings claimed in the leasing business case analysis.
Nonetheless, we believe that the bureau benefitted from preparing the business case analysis in that it

                                                    26
U.S. Department of Commerce                                                          Final Report IPE-11573
Office of Inspector General                                                                  September 2000



provided management with some useful market information on costs and potential availability of lease
space.

In summary, although we found that the business case analyses that we reviewed had some flaws, we
believe that their use as a management tool should improve the bureau’s decision-making process. We
recommend that the bureau expand its use of formal business case analyses to guide its managers’
decisions.



In responding to our draft report, the Census Bureau concurred with our recommendation to expand
the use of formal business case analyses as a management tool in the 2010 decennial. However, the
bureau did not concur with our statement that the business case analysis used for Phase II of the 2000
decennial was flawed because cost estimates for Class A office space were used. It disagreed that
estimates based on light industrial and strip mall retail space would have been appropriate. Although
typically less expensive than Class A office space, the bureau said that light industrial and strip mall
retail space was not widely used for it was often either not available or did not have the infrastructure in
place for necessary voice and data communications lines and therefore required longer lead times for
installation.




                                                     27
U.S. Department of Commerce                                                           Final Report IPE-11573
Office of Inspector General                                                                   September 2000



IV.     Space Leasing Project Lacks an Adequate Interagency Agreement with GSA

The Census Bureau and GSA were to formalize their partnership agreement through a memorandum of
understanding (MOU). The agreement was to spell out the roles, responsibilities and rights of each
agency: the bureau was responsible for setting the broad specifications and requirements and providing
the project funding; GSA was responsible for identifying and leasing space throughout the United States
and arranging for the data and voice telecommunications, office furniture, and supplies.

The two agencies agreed that there would be a separate MOU for each of the two leasing phases. The
Phase I MOU, dated February 17, 1998, was used to acquire temporary space for approximately 402
census field offices, 130 ELCOs, and the corresponding telecommunications, office furniture, and
supplies. The Phase II MOU was to be used to authorize GSA to proceed with the leasing of the
remaining 390 LCOs. The bureau and GSA signed the Phase II MOU on November 17, 1998, and
began performance under it before receiving all of the required Commerce Department clearances. As
a result, the Department advised the bureau in December 1998 that the agreement was not final. The
Phase II MOU has since been revised several times. As of March 29, 2000, it had not been signed by
GSA.

To manage a project as large as the 2000 decennial, a well-constructed MOU is necessary for each
party to understand its rights and responsibilities under the partnership. Such an MOU should be
formally constructed so that it provides clear guidance to the parties and minimizes potential disputes.
We found that the Phase I MOU and the Phase II draft agreements were missing several key elements
and the initial Phase II draft MOU included a citation that prevented agreement between the parties.

The partnership agreement lacked key elements

In examining the Joint Venture 2000 partnership agreement, we found that it did not adequately define
the use of commercial brokers, nor did it cite a legal authority acceptable to both parties, to govern the
treatment of funds and disposition of receipts.

Use of commercial brokers

The use of commercial brokers was provided for in the Phase I MOU. However, the exact
responsibilities of these brokers, the extent of their authority, the estimated cost for their use, and which
party (the bureau or GSA) is responsible for managing them were not discussed in the MOU.



                                                     28
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



While some of the details on the use of brokers could have been dealt with outside the MOU, we
believe that the cost, authority, and oversight issues regarding brokers should have been in the MOU.
The lack of detail concerning the use of commercial brokers can lead to misunderstandings and possibly
to the government becoming subject to unauthorized obligations. The use of commercial brokers also
adds to the cost of the leases through the addition of brokers’ fees. This is true even where the landlord
pays the commercial brokerage fees because such costs are included in the landlord’s lease rate.

The MOU should have fully described the use of commercial brokers: under what circumstances they
would be used; whether GSA, the bureau, or the lessor would be responsible for commissions; and the
limits of their authority. We recommend that the bureau refrain from using commercial brokers in the
2010 decennial leasing operations until the terms of their use are worked out with GSA, if applicable,
and with individual lessors.



The Census Bureau, noting that approximately 6 percent of the Census 2000 acquisitions involved the
services of GSA contract real estate brokers, concurred with our recommendation that commercial
brokers should not be used in the 2010 decennial leasing operations until the terms of their use are
worked out in general policy and with individual lessors.

Census and GSA need to sign revised Phase II MOU

As we indicated above, the bureau and GSA signed a Phase II MOU on November 17, 1998, and
began performance under it before receiving all of the required Commerce Department clearances.
After the bureau was advised by the Department, in December 1998, that the agreement was not final,
the Phase II MOU has since been revised several times. On September 30, 1999, the bureau sent the
revised draft MOU for the ELCO/LCO lease program to GSA after it was approved by the
Department’s Office of General Counsel, the Chief Financial Officer, and other appropriate officials.
However, GSA reviewed the draft and determined that under its specific authority it is exempted from
adhering to the Economy Act. The Department’s Office of General Counsel now agrees with GSA’s
position and needs to delete citation of the Economy Act in the draft MOU.

As of July 25, 2000, the Office of General Counsel had still not revised the MOU thus leaving the
project ungoverned by an agreement between the parties. The Department should work closely with
the bureau and with GSA to finalize an MOU, especially since the MOU covers the close-out and
property disposition services for the leased offices. In the future, if the bureau enters into another
agreement associated with the decennial leasing operations, or any other activity, it should make sure
that the agreement receives appropriate approvals from the Department before the agreement is


                                                   29
U.S. Department of Commerce                                                     Final Report IPE-11573
Office of Inspector General                                                             September 2000



finalized and any work is started. This includes agreements that do not have money directly associated
with them.



In its response to our draft report, the Census Bureau concurred with our recommendation to finalize a
memorandum of understanding between the bureau and GSA. However, the bureau notes that despite
the lack of a signed MOU for Phase II, all work has been accomplished, with the exception of office
close-out and the disposition of property. The bureau makes no mention of rectifying the lack of any
present formal agreement between the bureau and GSA. We believe that such an agreement is still
needed and reiterate our recommendation for the finalization of an MOU in the current 2000 decennial,
however late in the process.




                                                  30
U.S. Department of Commerce                                                         Final Report IPE-11573
Office of Inspector General                                                                 September 2000



V.      The Bureau Could Have Made Greater Use of Build-Out Financing

Many of the census offices, once leased, must be “built out” to configure the office according to the
Census Bureau’s specifications. While each office has mostly open space, the following enclosed
spaces are needed in each LCO: a manager’s office, approximately 120 square feet (SF); a break
room (200 SF); a multipurpose room (400 SF); a training room (650 SF); and a central storage room
(750 SF). If an attached quality-control Accuracy and Coverage Evaluation office (200 SF) is part of
the LCO, slab-to-slab walls and a separate entrance are also required. Such alterations include tearing
down or putting up walls and doors, building ramps to ensure compliance with the Americans With
Disabilities Act, and improving electrical systems.

During final lease negotiations, the lessor is given the option to include the cost of the build-out in the
rent or to receive a lump sum payment for alterations of the leased space—payable upon completion of
the build-out effort, but before occupancy. If the lessor chooses to finance the project through a
commercial lender, the lessor’s finance costs will be included in the rent charged to the government.
While the bureau encouraged some up-front payment of build-out costs, thereby eliminating finance
costs, this was emphasized far more in the later waves of the partnership’s campaign.

During our review, we learned that the Phase II office acquisition budget included a targeted amount of
$8 million for office build-out payments to lessors. This fund was to be used to finance lessor build-out
costs in the form of up-front lump-sum payments or to otherwise encourage offers in tight markets.
Up-front build-out payments have three distinct advantages in that they

C       provide for the completion of the office build-outs at a lower cost to the government by
        eliminating the lessors’ finance costs (approximately 12 percent per annum for construction
        loans), which would otherwise be included in the lease rate;
C       encourage more offers from lessors (since construction loans are a disincentive for some
        lessors), thereby improving the competitive framework for the negotiation of these leases and
        GSA’s bargaining position on the bureau’s behalf;
C       enable the build-outs to be done more quickly, given the tendency of landlords to delay
        beginning the build-out to lessen their own borrowing costs.

The bureau did not utilize the same proportion of build-out funds in earlier waves 1–9 as it did in
waves 10–11. In wave 4, the wave in which the ELCO’s were leased, the bureau expended only
$697,419. Before April 1999, few of these targeted funds had been used because the bureau intended
to retain these funds to use as added incentives in negotiations in what they correctly anticipated would
be the most difficult markets. The leasing projects assumed to be most difficult were scheduled in the
last waves—waves 10 and 11. However appropriate this strategy might have been, we were

                                                    31
U.S. Department of Commerce                                                                 Final Report IPE-11573
Office of Inspector General                                                                         September 2000



concerned that if the bureau waited too long to utilize these funds, it might not use a large part of this
targeted amount and would thereby miss an opportunity to reduce its overall leasing costs.

In mid-April, we met with the bureau’s Venture 2000 project managers to discuss maximizing potential
savings by using all the targeted funds for lessor build-out costs. The bureau readily agreed and issued
a memo on April 20, 1999, reminding its regional personnel and GSA of the availability of these funds
for lease build-out in the final wave, wave 11. The memo directed the bureau’s regional directors to
use lump-sum payment for alterations “whenever requested by the offeror or when it will encourage the
submission of responsive offers.”14

In our May 7, 1999, interim memo to the bureau, we also recommended that the bureau personnel
work with GSA to increase the use of such lessor payments during the final stage of space acquisition
to help obtain better lease terms, timely alterations, and cost savings. The Census regional directors
responded by committing a total of $5,635,763 in the final leasing stage, wave 11, for lump-sum
payments for alterations, which brought total funds expended to $10,074,116 in Phase II, exceeding
their targeted amount of $8 million. The total up-front build-out payments for both phases (ELCOs and
LCOs) came to $10,771,535. Given that the finance costs for construction loans are characteristically
about 12 percent per year, we calculate that the bureau, in making lump-sum alteration payments, has
avoided internal finance costs of over $1.7 million and, considering that the Treasury must expend funds
earlier to make these payments, has reduced its total outlays for contracts by at least $980,000.15 Of
the $5,635,763 expended for up-front build-out costs in wave 11, following our April request that the
bureau maximize use of these funds, we estimate that the funds put to better use come to over
$476,000 for the remaining 15 months of the lease term. This was accomplished, in part, by the
prompt response of the bureau to our April discussion and the recommendation in the May 1999
interim memo. We recommend that the bureau study the impact and usefulness of providing lump sum
financing in this decennial and consider expanding its use in the 2010 decennial.




         14
           Decennial Logistics Planning Memorandum No. 99-D-28, April 20, 1999.

         15
            Total finance costs avoided by the government include estimated 12 percent construction costs, minus
the current 5.24 percent borrowing costs due to the sale of government securities. For the 15-month period we
calculated borrowing costs at 5.01 percent for the first year and 5.53 percent for three months of a second year in
Treasury constant maturity securities plus one-eighth of a percentage point for administrative costs. These earlier
up-front expenditures by the bureau resulted in a net 6.76 percent savings per year to the federal government.
However, the bureau has avoided internal costs to the decennial census of the entire estimated 12 percent per year
because the Treasury’s borrowing costs are rarely passed on to government agencies. See Federal Reserve
Statistical Release, July 19, 1999; interest rates for July 15, 1999.

                                                         32
U.S. Department of Commerce                                                      Final Report IPE-11573
Office of Inspector General                                                              September 2000




The Census Bureau concurred with our recommendation to evaluate the usefulness of providing up-
front financing to lessors for build-out costs related to the 2000 decennial leasing and will give full
consideration to expanding its use in the 2010 decennial. In response to our statement that “Census
could have made greater use of build-out financing,” the bureau noted that the opening of the 130
ELCOs made this kind of up-front financing very difficult because there were insufficient FY 1998
funds available for use of widespread, lump-sum payments for space alterations. Such funds were not
specifically requested until FY 1999.




                                                  33
U.S. Department of Commerce                                                     Final Report IPE-11573
Office of Inspector General                                                             September 2000



                                    RECOMMENDATIONS

We recommend that the Director of the Bureau of the Census take appropriate steps to:

1.     Conduct an evaluation of the Joint Venture 2000 partnership shortly after the conclusion of the
       2000 decennial so that the bureau will have a timely, objective, and complete picture of the
       Census/GSA partnership model to use in planning for the 2010 decennial. The evaluation
       should include outcomes, benefits and costs, and notable management successes and problems
       or “lessons learned” in all phases (see page 9).

2.     Draw delineated areas as broadly as possible in the space acquisition process for the 2010
       decennial to increase competition between potential offerors of LCO lease space, to reduce the
       bureau’s overall leasing costs and to ensure that it has alternative space available when
       unforeseen difficulties prevent a lease award (see page 14).

3.     Create a standardized system of file management for use in all Regional Census Centers in the
       2010 decennial leasing operations and ensure that Census leasing staff comply with applicable
       record retention schedules (see page 19).

4.     Ensure that the lessons learned from the installation of the 2000 decennial telecommunications
       systems are recorded so that they may serve as a basis for planning and implementation in 2010
       (see page 23).

5.     Ensure that there is more centralized coordination between the offices that supply information
       needed for planning the bureau’s space and capacity requirements for the 2010 decennial well
       in advance of the leasing of its field offices (see page 23).

6.     Coordinate planning with Department’s Office of Telecommunications Management (OTM)
       and provide the OTM with a detailed plan for the 2010 telecommunications procurement and
       systems deployment before any systems are purchased so that it may analyze and provide
       advice to improve the overall plan. Update that office regularly as the systems procurement
       and deployment unfold in preparation for the 2010 decennial (see page 23).

7.     Expand the use of formal business case analyses as a management tool in the 2010 decennial to
       guide decision-making (see page 26).




                                                 34
U.S. Department of Commerce                                                        Final Report IPE-11573
Office of Inspector General                                                                September 2000



8.     If commercial brokers are used in the 2010 decennial leasing operations, ensure that the terms
       of their use, degree of responsibility, commissions structure, and limits of their authority are
       worked out in general policy and with individual lessors (see page 28).

9.     Work closely with the Department and GSA to finalize a memorandum of understanding
       between the bureau and GSA. Ensure that any future agreements associated with this or future
       decennials receive appropriate approvals from the Department of Commerce before they are
       signed and any new work is started (see page 28).

10.    Evaluate the usefulness of providing up-front financing to lessors for build-out costs related to
       the 2000 decennial leasing and consider expanding its use in 2010 (see page 31).




                                                   35
U.S. Department of Commerce                                                      Final Report IPE-11573
Office of Inspector General                                                              September 2000




                                              Appendix A

                Major Steps In The Venture 2000 Leasing Acquisition Process

C      GSA contacts current or former lessors and local real estate brokers and reviews current
       USG-owned property for availability.

C      Census Bureau RCC or field staff conduct “windshield surveys” of vacant offices, obtain and
       forward addresses to GSA.

C      GSA screens privately owned space possibilities according to the bureau’s requirements and
       schedules market survey inspections.

C      Both GSA and the bureau conduct market surveys, assess security requirements, collect crime
       statistics and existing floor plans. If necessary, GSA draws new floor plans and calculates total
       square footage.

C      The bureau approves or rejects sites for the Solicitation for Offers.

C      The bureau prepares preliminary architectural drawings (for build out of walls, or door
       demolition or construction) and sends them to GSA for inclusion in the SFOs.

C      Both GSA and the bureau customize SFOs according to specific markets; the bureau approves
       each SFO prior to issuance.

C      GSA issues SFOs to potential offerors, reviews offers received, and shares SFOs and
       abstracts of offers with the bureau.

C      GSA schedules the offer negotiations and conducts the negotiations either via telephone or in
       person. Bureau leasing specialists are included as observers but not as active participants.

C      Best and final offers are requested, received, and evaluated by GSA. Abstracts of offers,
       including any exception to requirements, are shared with the bureau, which must concur with
       the award for it to be finalized.

C      The bureau decides on security system requirements, GSA awards the lease, and a copy is
       provided to the bureau within 15 days.

                                                   36
C   GSA leads preparation of the acquired space with build-out plans and progress, installation of
    T-1 data circuit lines, the telephone system, and delivery of furniture and supplies.

C   The bureau and GSA both monitor construction progress and hold an acceptance inspection.
    GSA gives the bureau the keys to and possession of the space.




                                              37
                  Appendix B
U.S. Census Bureau Response to the Draft Report




                      38
39
40
41
